CERTIFICATE OF WORD COUNT
NO. 20-332
Maggy Hurchalla,
Petitioner,
v.
Lake Point Phase I, LLC, et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the LAKE POINT PHASE I, LLC,
8802 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
ET AL. BRIEF IN OPPOSITION contains

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
November 13, 2020

SCP Tracking: Altenbernd-501 E. Kennedy Boulevard-Cover Orange

